WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

20-9

BIBIJI INDERJIK KAUR PURI, ET AL. SOPURKH KAUR KHALSA, ET AL.
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
ID Please enter my appearance as Counsel of Record for all respondents.
El There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
EWTC Management, LLC; Peraim Kaur Khalsa; Sid Karm Kaur Khalsa; Sopurkh Kaur Khalsa; Ajeet Singh Khalsa;
Gurudhan Singh Khalsa; Karam Singh Khalsa; Kartar Singh Khalsa; Guru Hari Singh Khaslsa; Sid Singh Sahib
Corporation and Unto Infinity, LLC
I am a

member of the Bar of the Supreme Court of the United States.

0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
July 17, 2020

Date.

(Type or print) Name

Paul Carlos Southwick
0 Mr.

Firm

El Mrs.

El Miss

Davis Wright Tremaine LLP

Address

1300 SW Fifth Avenue, Suite 2400

City & State
Phone

El Ms.

Portland, Oregon

(503) 778-5266

Zip
Email

97201

paulsouthwick@dwt.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED

CC: SURJIT P. SONI AND LEO E. LUNDBERG, JR., COUNSEL FOR PETI

RECEIVED
° AUG - 5 2020
OFFICE OF THE R
SUPREME COU CLERK

U.S

